OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/LEBANON’S
DEVELOPING REHABILITATION
ASSISTANCE TO SCHOOLS AND
TEACHER IMPROVEMENT
PROGRAM
AUDIT REPORT NO. 6-268-13-011-P
APRIL 28, 2013




CAIRO, EGYPT
Office of Inspector General


April 28, 2013

MEMORANDUM

TO:                  USAID/Lebanon Director, Azza El-Abd

FROM:                Regional Inspector General/Cairo, Catherine Trujillo /s/

SUBJECT:             Audit of USAID/Lebanon’s Developing Rehabilitation Assistance to Schools and
                     Teacher Improvement Program (Report No. 6-268-13-011-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and included them, without attachments, in Appendix II.

The final report includes six recommendations to improve the management of USAID/Lebanon’s
Developing Rehabilitation Assistance to Schools and Teacher Improvement Program. The
mission agreed with all recommendations and provided adequate support demonstrating
corrective actions taken. Consequently, final action has been taken on all six recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1a Nady El-Etisalat Street, off El-Laselki Street
New Maadi
Cairo, Egypt
http://oig.usiad.gov
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 4

     Program Was Not on Schedule to Achieve Goals ................................................................. 4

     Mission Did Not Ensure Sustainability of Program Activities .................................................. 6

     Mission Did Not Implement Human Trafficking Policies ......................................................... 8

Evaluation of Management Comments.................................................................................. 10

Appendix I—Scope and Methodology ................................................................................... 11

Appendix II—Management Comments .................................................................................. 13

Appendix III—USAID/Lebanon’s Alert Notice Analysis ........................................................ 16




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOR             agreement officer’s representative
C-TIP           counter-trafficking in persons
EDC             Education Development Center Inc.
FY              fiscal year
MEHE            Ministry of Education and Higher Education
MOU             memorandum of understanding
RIG/Cairo       Regional Inspector General/Cairo
SUMMARY OF RESULTS
According to the United Nations Development Programme’s Human Development Report 2011,
Lebanon’s Education Index, an indicator that measures a country’s social and economic
development using average years of schooling for 25-year-olds and expected years of
education for school-aged children, was 0.695. It ranked 86 of 187 countries, categorizing
Lebanon as a country whose education system is moderately developed. Additionally,
40 percent of Lebanese students attend public schools held in dilapidated school buildings and
classrooms, lacking modern equipment, and with teachers poorly trained in effective teaching
methods. For public schools to play a stronger role in developing qualified students at the
national level, they need to be comparable to private schools in terms of infrastructure,
resources, and quality.

To help Lebanon’s Ministry of Education and Higher Education (MEHE) address these
problems, on September 29, 2010, USAID/Lebanon awarded a 5-year, $75 million cooperative
agreement to Education Development Center Inc. (EDC) to implement the Developing
Rehabilitation Assistance to Schools and Teacher Improvement program. As of December 31,
2012, the mission obligated $49.3 million and disbursed about $26.5 million.

The goal was to improve educational outcomes in Lebanon by (1) improving teacher and
student performance, (2) increasing community and parental involvement, and (3) improving the
learning environment in the schools. To accomplish this goal, EDC implemented school
rehabilitation, training, and other activities through five components:

   Assessment: collecting data to provide core information for the program’s monitoring and
    evaluation system and to help establish targets for many final program outcomes.

   School Learning Environments Improved: rehabilitating and procuring equipment for public
    schools.

   Increased Learning Opportunities: helping MEHE improve its national on-the-job training
    program.

   Stakeholder Engagement Increased in Public Schools: mobilizing                   community
    representatives to participate in and support established parent councils.

   High-quality Monitoring and Evaluation Achieved: providing information about the extent and
    quality of impact, and building local capacity for engaging with high-quality monitoring and
    evaluation activities both during and after the program ends.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this audit as part of its fiscal year
(FY) 2013 audit plan to determine whether USAID/Lebanon’s Developing Rehabilitation
Assistance to Schools and Teacher Improvement program was achieving its goal to improve
educational outcomes.

As of December 2012—more than 2 years into the 5-year program—29 of the 1,400 schools
slated for rehabilitation were completed, and 154 more were under way. The work included
rehabilitating roofs, painting classrooms and school facades, repairing floors and water



                                                                                              1
fountains, repairing or replacing toilets and sinks, and repairing or updating windows and doors.
Examples of the types of rehabilitation are shown in the pictures below.




The program rehabilitated this roof at Ehmej     Zhgarta Mixed Kindergarten’s facade got a new
Intermediate School in Mount Lebanon. (Photo     coat of paint through the program. (Photo by
by RIG/Cairo, February 19, 2013)                 RIG/Cairo, February 21, 2013)

However, based on program accomplishments so far, the mission will not achieve its goal under
its current arrangement with EDC (page 4). It did not make sure that program activities were
sustainable (page 6); without doing so, programs will not be maintained when USAID’s funding
ceases.

In addition, neither the mission nor EDC incorporated human trafficking provisions in the
agreement and subagreements, and the mission did not designate a counter-trafficking in
persons (C-TIP) coordinator (page 8).

To address these problems, we recommend that USAID/Lebanon:

1. In coordination with USAID/Egypt’s regional procurement office, use the results of the alert
   notice to reduce program activities, replace, or terminate the award, and document their
   determination (page 6).

2. Ask, in writing, the implementer and MEHE to establish roles and responsibilities of all
   program parties that align with the cooperative agreement (page 6).

3. In coordination with USAID/Egypt’s regional legal advisor and procurement office,
   determine, in writing, whether 611(e) certification is required based on program activities,
   and submit the certification if required (page 8).

4. In coordination with USAID/Egypt’s regional procurement office, modify the program
   agreement to include sustainability activities for each component of the award (page 8).

5. In coordination with EDC, modify all awards to include the required trafficking in persons
   provision (page 9).

6. Designate, in writing, a C-TIP coordinator (page 9).




                                                                                               2
Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments, without attachments, are in Appendix II, and our
evaluation of them is on page 10.




                                                                                        3
AUDIT FINDINGS
Program Was Not on Schedule to
Achieve Goals
According to its agreement, the program was to rehabilitate 1,400 schools to meet MEHE
standards, and prepare the schools’ infrastructure to establish or upgrade computer and science
laboratories. Within the first 90 days of inception, the program staff planned to complete an
assessment of the schools to guide the rehabilitation and training efforts. The program also was
to train 5,100 teachers and create active parent-teacher associations.

The program activities are not on schedule to improve educational outcomes. As of
December 31, 2012—more than 2 years into the 5-year program—EDC was rehabilitating
154 schools and had completed work on 29. Together, they represented only 13.1 percent of
the 1,400.

In addition, the amount spent as of December 31, 2012, raises the question of whether enough
funds are left to rehabilitate the remaining 1,217 schools. EDC has spent about $15 million,
46 percent of the $32.7 million rehabilitation activities budget, on 154 partially completed and
29 completed schools. At this spending rate, the program has enough funds to rehabilitate
about 398 schools by the end of the award, more than 1,000 schools short of its target.

During March 2012, EDC completed an assessment of 1,280 eligible schools out of the
1,400 planned—more than 1 year after the December 31, 2010, due date. The assessment cost
nearly $1.5 million, more than $352,000 over the estimated $1.1 million budgeted.

Furthermore, to reach the expected third year target results, EDC spent $2.4 million, or
44 percent of the $5.5 million training component budget, to train 166 teachers of the planned
5,100.

In addition, the subcontractor responsible for implementing extracurricular activities and
community outreach originally planned to begin operations early in the program. However, as of
December 31, 2012, this component had not begun.

There are several reasons why EDC is behind schedule: (1) the mission did not select the
appropriate award mechanism to implement the program, (2) the former mission director signed
a memorandum of understanding (MOU) with MEHE to jointly direct program implementation,
thereby contradicting the agreement that called for EDC to be in charge, (3) program
management was ineffective, and (4) EDC lacked consistent leadership.

Award mechanism. USAID’s Automated Directives System (ADS) 304.3.2, “Identifying the
Intended Purpose of the Award,” states that an assistance mechanism (grant or cooperative
agreement) should be used when the U.S. Government is supporting the program but not
running it.

To implement this program, the agreement officer decided on a cooperative agreement because
it anticipated a limited amount of substantial involvement on the part of mission officials.
However, what the agreement officer did not consider was that other mission officials thought



                                                                                              4
this program would be a successful example of a host country-owned program in which both the
mission and MEHE would direct all technical aspects and provide direction. The MOU discussed
below spelled out how they would jointly manage the program.

However, this type of arrangement runs contrary to a cooperative agreement, which limits the
mission’s level of substantial involvement. As a result, EDC could not implement some activities
without getting a review and approval from MEHE first, and this caused significant delays. In
retrospect, mission officials said, a contract would have been a more appropriate mechanism
than a cooperative agreement to implement the program.

MOU. An MOU is not an awarding mechanism, but may be used to confirm an agreement with a
host government for a program USAID will fund directly through an obligating instrument, such
as a cooperative agreement or contract, signed with other parties. Although the mission used a
cooperative agreement that limited its involvement in managing the program, USAID/Lebanon’s
former mission director signed an MOU with MEHE agreeing to jointly manage the program.
The MOU established a steering committee, which the minister chaired, to provide direction and
oversight in line with MEHE’s national strategy for education. Committee responsibilities
included reviewing work plans and monitoring and evaluation reports to oversee the program
results and achievements.

The MOU also established a coordination committee composed of an equal number of officials
from the Lebanese Government and the U.S. Embassy. This committee reported to the steering
committee and was to perform program oversight and provide technical direction to:

   Make sure that EDC used MEHE’s prescribed reporting tools for its work plans, follow-up
    reports, and progress indicators.

   Provide continuous coordination on activities ensuring that assistance conformed to MEHE’s
    national standards and specifications, and jointly review timetables and modifications with
    the mission.

   Provide recommendations to the steering committee on program implementation.

Mission and EDC officials said MEHE officials redesigned the program because they believed
they were in charge of it. The redesign caused implementation delays. Moreover, MEHE took
more time than anticipated to make decisions.

Ineffective program management. Though mission officials were aware of poor program
performance, they did not adjust implementation and provide a timely remedy. Since the
program began, the agreement officer’s representative (AOR) reported problems to the
agreement officer such as slow implementation, no chief of party, poor-quality deliverables, and
poor program organizational structure.

The mission did not take corrective actions because officials there said they believed this
program aligned squarely with the USAID Forward agenda of allowing host-country
governments to run mission-awarded assistance; they also wanted to initiate USAID’s
procurement reform agenda. Moreover, while problems with EDC’s program implementation
surfaced as early as March 2011, mission officials did not take action to remedy them until the
agreement officer issued an alert notice to EDC in January 2013, nearly 2 years after identifying
the problems.



                                                                                               5
EDC adjusted its program implementation based on a revised program description, budget, and
performance management plan, and submitted them to the agreement officer in April 2012. As
of December 31, 2012, the officer had not modified the agreement to include these changes
because the officer considered EDC’s revised budget inadequate. During this period, EDC
spent nearly $25.4 million on activities that the AOR considered to be of questionable quality.

Lack of program leadership. EDC’s chief of party was responsible for supervising the
performance of all duties during program implementation. Despite this being a key position,
EDC has not been able to keep it filled. Over a span of about 2 years, EDC had three different
chiefs of party, with a fourth expected to arrive in March 2013. According to EDC officials, the
chiefs of party departed because of personal reasons. Employees working for the
subcontractors said this change in supervision resulted in sporadic oversight and an
inconsistent idea of how to achieve program goals. For example, an official with one of the
subcontractors said that because the position was vacant, no one at EDC informed MEHE that
redesigning the program would cause delays and hinder its implementation.

The agreement officer issued an alert notice on January 15, 2013, informing EDC that
USAID/Lebanon considered its performance unsatisfactory in several areas (in Appendix III).
The mission notified EDC that it planned to remove certain activities, replace, or terminate the
award unless EDC met 11 conditions by February 14, 2013; they included hiring a chief of party,
and submitting a revised budget and a detailed plan for quality control of rehabilitation efforts.
Mission officials have since determined that EDC met 4 of the 11 conditions.

If these problems are not addressed, the program will not achieve its goal to improve
educational outcomes in Lebanon. Thus, we recommend the following.

      Recommendation 1. We recommend that USAID/Lebanon, in coordination with
      USAID/Egypt’s regional procurement office, use the results of the alert notice to reduce
      program activities, replace, or terminate the award, and document their determination.

      Recommendation 2. We recommend that USAID/Lebanon ask, in writing, the
      implementer and the Ministry of Education and Higher Education to establish roles and
      responsibilities of all program parties that align with the cooperative agreement.

Mission Did Not Ensure
Sustainability of Program Activities
Section 611(e) of the Foreign Assistance Act of 1961, as amended, states that USAID shall not
award funds to any capital assistance program in a foreign country estimated to cost more than
$1 million until the mission director certifies that the host-country government has the financial
and human resources to maintain and use the program effectively.

In addition, USAID’s ADS 201.3.4.2, “Role of Partners, Customers, and Stakeholders,” states
that while developing a long-term assistance strategy, USAID should work closely with host-
country counterparts that play roles in implementing development plans to help ensure that
those plans produce sustainable benefits after USAID funding ends.1 In keeping with ADS, the
program selected schools based on their ability to maintain their facilities with available
resources. To assist with maintenance, MEHE planned to provide training to school officials.

1
    USAID revised ADS 201 in March 2012. The version cited here was in effect when the award was made.


                                                                                                     6
Also, to ensure program sustainability, EDC incorporated several activities into the agreement’s
School Learning Environments Improved component. The program planned to:

   Help parent councils develop a plan for continued maintenance of school repairs and
    renovations.

   Require contractors responsible for rehabilitating the schools to provide all manufacturer
    maintenance and repair guidelines to the school’s director, along with advice on additional
    maintenance procedures.

   Train teachers and school staff to use new science equipment.

   Update its monitoring database created during the needs assessment to set a baseline that
    MEHE could use to plan for expected computer software and hardware updates, and for lab
    equipment and supply replacements.

The program’s budget included approximately $32.7 million to rehabilitate 1,400 schools to meet
MEHE standards, and prepare the schools’ infrastructure to establish or upgrade computer and
science laboratories. However, the mission did not submit the required 611(e) certification
attesting to the Lebanese Government’s capability to sustain the program after USAID
assistance ends.

Although MEHE, in coordination with schools’ local municipalities, had planned to rehabilitate
some schools and provide maintenance training to school officials, it did not. For example, the
program installed aluminum windows and painted walls and ceilings on one floor of a school, as
shown in the photo on the left. The local municipality did not replace the leaking windows on a
second floor. This caused water to enter the school and damage the painted walls and ceilings,
as shown in the photo on the right below.




This room on the first floor of Ehmej            Leaking old windows on the second floor
Intermediate School in Mount Lebanon got         caused water damage to walls and ceilings in
new windows and fresh paint. (Photo by           the rooms there. (Photo by RIG/Cairo,
RIG/Cairo, February 19, 2013)                    February 19, 2013)

Furthermore, the program did not (1) help parent councils develop a sustainability plan for the
rehabilitated schools, (2) train teachers and school staff how to use new science equipment,
and (3) update its monitoring database. Documentation was made available showing that
USAID’s general counsel advised the mission to submit the 611(e) certification because some


                                                                                              7
of the rehabilitation work was considered capital assistance. However, the mission believed
otherwise and did not submit it.

MEHE and local municipalities did not perform planned rehabilitation activities at some schools
because of shifting budget priorities. For example, while MEHE had planned to use funds to
apply waterproof paint to a school and ensure that leaky windows would not damage the
painted surfaces, it decided instead to use the funds to help resolve a teachers’ strike. Further,
MEHE did not train school officials how to maintain the rehabilitated projects because the
manual was not finalized.

According to EDC, the program did not help the parent councils because MEHE did not want
program employees directly contacting parents and community members. MEHE revised the
program description because it preferred that school officials be trained to maintain the schools
instead of having parent councils be responsible. The program did not train teachers how to use
new science equipment because EDC ran into delays getting the equipment. These delays also
affected the database; EDC and officials with the subcontractors said it was not used to plan for
expected equipment and supply replacements.

Maintaining rehabilitated schools helps improve educational outcomes in Lebanon. It is
imperative for USAID/Lebanon to consider MEHE’s financial and human resources when
assessing its ability to sustain program activities. Furthermore, the sustainability of activities is
contingent upon implementing some activities noted in the agreement. Not doing so decreases
the quality and long-term usefulness of USAID’s investments. Therefore, we make the following
recommendations.

      Recommendation 3. We recommend that USAID/Lebanon, in coordination with
      USAID/Egypt’s regional legal advisor and procurement office, determine, in writing,
      whether 611(e) certification is required based on program activities, and submit the
      certification if required.

      Recommendation 4. We recommend that USAID/Lebanon, in coordination with
      USAID/Egypt’s regional procurement office, modify the program agreement to include
      sustainability activities for each component of the award.

Mission Did Not Implement
Human Trafficking Policies
USAID’s Acquisition & Assistance Policy Directive 11-04, “New Mandatory Standard Provisions
for Assistance Awards,” states that agreement officers must include the trafficking in persons
provision in all new awards and must modify existing awards to include it at the earliest
opportunity. ADS 303, “Grants and Cooperative Agreements to Nongovernmental
Organizations,” requires the recipient to include in all subagreements, including subawards and
contracts, a provision prohibiting (1) human trafficking, (2) procurement of a commercial sex act,
and (3) the use of forced labor in the performance of an award by a subcontractor or any of its
employees.2 In addition, the code of conduct requires all missions to designate a C-TIP
coordinator to be the primary point of contact for trafficking problems.



2
    “Standard Provisions for U.S. Nongovernmental Organizations,” Section M20.


                                                                                                   8
The mission’s regional agreement officer did not incorporate the provision in the program’s
cooperative agreement, and EDC did not include it in agreements with its subcontractors. In
addition, USAID/Lebanon did not have a C-TIP coordinator.

While Agency guidance requires agreement officers to modify existing awards to include the
trafficking provision at the earliest opportunity, USAID/Lebanon’s regional agreement officer did
not include it in an August 2012 modification because of an oversight. Moreover, EDC officials
said they did not include the provision in subawards because the mission added it to the
program’s agreement in January 2013 after the subawards had been signed. Furthermore,
mission officials said they did not designate a C-TIP coordinator because the mission is
understaffed and overlooked the requirement while completing other priorities.

Although the program does not specifically target victims of trafficking, EDC awarded about
$32.7 million to three subcontractors to perform rehabilitation activities—types of work that run
the risk of attracting human traffickers. Without including the required provision, USAID/Lebanon
cannot terminate an award without penalty if the recipient or its employees or any subcontractor
or its employees engage in trafficking, procure a commercial sex act, or use forced labor in
performance of an award. Additionally, without a C-TIP coordinator, the mission might not have
someone to develop a C-TIP strategy and help technical offices integrate antitrafficking
components into existing programs to alert mission and contractor employees about the
problem. Therefore to address these concerns, we make the following recommendations.

   Recommendation 5. We recommend that USAID/Lebanon, in coordination with
   Education Development Center Inc., modify all awards to include the required trafficking
   in persons provision.

   Recommendation 6. We recommend that USAID/Lebanon designate, in writing, a
   counter-trafficking in persons coordinator.




                                                                                               9
EVALUATION OF MANAGEMENT
COMMENTS
In response to the draft report, USAID/Lebanon officials agreed with all recommendations and
provided adequate support demonstrating its corrective actions. Consequently, final action was
completed, and all six recommendations are closed upon issuance of this report.

Recommendation 1. Based on the results of the alert notice, mission officials, in coordination
with USAID/Egypt’s regional procurement office, modified the program’s agreement on April 10,
2013, to remove activities, reduce total estimated costs from $75.0 million to $49.3 million, and
adjust the program’s end date from September 30, 2015, to December 31, 2013. We
acknowledge that a management decision has been reached and consider final action has been
taken on this recommendation.

Recommendation 2. Mission officials issued letters to MEHE and EDC officials to establish
revised roles and responsibilities for all parties that align with the program’s agreement. We
acknowledge that a management decision has been reached and consider final action has been
taken on this recommendation.

Recommendation 3. Mission officials, in coordination with USAID/Egypt’s regional legal advisor
and procurement office, agreed that a 611(e) certification was required based on program
activities and submitted a certification memo on April 16, 2013, that was approved by the acting
assistant administrator on April 21, 2013. We acknowledge that a management decision has
been reached and consider final action has been taken on this recommendation.

Recommendation 4. Mission officials, in coordination with USAID/Egypt’s regional procurement
office, modified the program’s agreement to include sustainability activities for remaining
component areas. We acknowledge that a management decision has been reached and
consider final action has been taken on this recommendation.

Recommendation 5. Mission officials modified the award on January 9, 2013, to include
the C-TIP provision, and the implementer included the provision in its subawards on April 12,
2013. We acknowledge that a management decision has been reached and consider final
action has been taken on this recommendation.

Recommendation 6. Mission officials issued a staff notice on January 9, 2013, that designated
a C-TIP coordinator. We acknowledge that a management decision has been reached and
consider final action has been taken on this recommendation.




                                                                                              10
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Lebanon’s Developing
Rehabilitation Assistance to Schools and Teacher Improvement program was achieving its goal
to improve educational outcomes. The mission awarded EDC a 5-year cooperative agreement
for approximately $75 million on September 29, 2010. As of December 31, 2012,
USAID/Lebanon had obligated $49.3 million and disbursed about $26.5 million. The audit team
tested $1.2 million, or 5 percent, of that disbursement.

The audit covered the period from when the program started on September 29, 2010, to
December 31, 2012. In planning and performing the audit, we assessed management controls
related to documentation and data verification; reporting; supervisory and management review
of program processes and activities; and establishment and review of performance measures
and indicators. We assessed the following significant controls: the program’s performance
management plan, annual work plans, semiannual portfolio implementation reviews, quarterly
reports, and EDC’s agreement and subawards, including modifications.

We conducted audit fieldwork from February 11 to February 27, 2013, at USAID/Lebanon and in
the offices of EDC, subcontractors, and Lebanese ministries in Beirut. We visited schools in the
governorates of Beirut, Mount Lebanon, and North.

Methodology
To answer the audit objective, we interviewed personnel from USAID/Lebanon, EDC, and
subcontractors, as well as MEHE officials. We reviewed reports and files that the mission and
EDC maintained as part of their program monitoring activities. We reviewed the agreement and
subsequent modification, the mission’s performance management plan, EDC’s annual work
plans, site visit documentation, and quarterly reports to gain an understanding of the program
and how USAID/Lebanon monitored and measured results. We also reviewed the mission’s
FY 2012 Federal Managers’ Financial Integrity Act assessment, portfolio implementation review
reports, and performance measures. Furthermore, we reviewed applicable laws and regulations
and USAID policies and procedures regarding the program, including the agreement and
modification, and ADS Chapters 201, 303, and 304.

To assess whether the program was achieving its objective, we validated reported results for
nine activity indicators for assessment, rehabilitation, training, and monitoring and evaluation
covering four of five program component areas through December 31, 2012. We judgmentally
selected these components to review because their activities comprised about 73 percent of
program expenditures.




                                                                                             11
                                                                                       Appendix I


We validated the implementer’s results captured in its monitoring and evaluation report with
supporting documentation, like attendance sheets, and our observations during site visits. The
audit team considered an activity indicator achieved if the verified amounts were within
10 percent of year 2 targets for assessment, training, and monitoring and evaluation activities as
of September 30, 2012; and within 10 percent of 45 percent of targets for rehabilitation activities
for all 5 years as of December 31, 2012. Two of nine indicators did not meet their targets. We
considered the reported results for all indicators accurate. The results of our test work cannot be
projected to the population of program activities.

The program rehabilitated 29 schools and was working on 154 others at a cost of about
$15 million as of December 31, 2012. The audit judgmentally selected 12 schools that the
program rehabilitated for about $1.2 million for site visits based on security constraints and
geographic locations: 2 in Beirut, 6 in Mount Lebanon, and 4 in North. To the extent possible,
we verified rehabilitation activities, and determined the extent to which schools were aware of
the source of program funding. The results of these visits cannot be generalized to the
population of all schools rehabilitated.

In addition, we inspected supporting documentation for reported results of eight judgmentally
selected assessment, training, and monitoring and evaluation activities. Whereas the program
delayed most activities, we selected from those that reported results. Interview and document
inspection results cannot be generalized to the population of all teachers or training activities.




                                                                                                12
                                                                                     Appendix II



MANAGEMENT COMMENTS


                                                                   April 23, 2013

MEMORANDUM

To:                Regional Inspector General/Cairo, Catherine Trujillo

From:              USAID/Lebanon Mission Director, Azza El-Abd /s/

Subject:           Revised Closure Request-Audit of USAID/Lebanon’s Developing
                   Rehabilitation Assistance to Schools and Teacher Improvement
                   Program (D-RASATI), Report No. 6-268-13-00X-P)

USAID/Lebanon is in general agreement with all of RIG recommendations. The Mission has
taken corrective measures and final actions have been completed on of all of the six audit
recommendations. Accordingly, the Mission requests closure of all audit recommendations as
per the corresponding responses provided below:

Recommendation No. 1: We recommend that USAID/Lebanon, in coordination with
USAID/Egypt’s regional procurement office, use the results of the alert notice to reduce
program activities, replace, or terminate the award and document their determination.

Mission Response: On April 8, 2013 the Regional Contracting Office on behalf of
USAID/Lebanon, issued Modification of Assistance #3 (Attachment A) to EDC’s Cooperative
Agreement (CA) 268-A-00-10-00078-00. The Modification of Assistance makes the following
changes to the award:
   a) Reduces activities in the Program Description (see below)
   b) Reduces the Total Estimated Cost from $74,969,482 to $49,306,000.
   c) Changes the award’s end date from September 30, 2015 to December 31, 2013.

The six main activities de-scoped from EDC’s award are:
   1. Complete the development of the Effective School Profile standards for the Ministry of
       Education on extra-curricular activities, leadership development and school improvement
       planning (consultancy)
   2. Procure ICT equipment (computers, multimedia) for public schools
   3. Provide English courses to public school teachers who teach English and/or those who
       use English as a language of instruction(teacher training)
   4. Develop an implementation/action plan for the MEHE as a follow up to the National ICT
       Strategy (consultancy)
   5. Develop a strategy to institutionalize extra-curricular activities (ECA) at the Ministry of
       Education, develop and implement ECA projects


                                                                                              13
                                                                                     Appendix II


   6. Develop a school leadership development program with parents and community
      involvement

As per award Modification #3, the above activities will no longer be implemented by EDC, but by
a new implementing partner under an Indefinite Quantity Contract, FORECAST II. Accordingly,
EDC’s award Total Estimated Cost has been reduced from $74,969,482 to $49,306,000.

The Mission has been in constant communication with EDC and has raised numerous times the
issue of poor performance on various activities during progress meetings and in emails. The
Mission sent official correspondence to EDC as follows:
    - Letter from Mission Director to EDC on September 1, 2011 (Attachment B)
    - Letter from ED/DRG Office Director to EDC on October 31, 2011 (Attachment C)
    - Letter from USAID/Egypt Regional Agreement Officer to EDC on June 28, 2012
       (Attachment D)

The Mission’s determination has been duly documented through a memo to the Mission Director
dated March 6, 2013 (Attachment E).

Based on the above, the Mission believes that final action has been completed and requests
closure of Audit Recommendation No. 1 upon report issuance.

Recommendation No. 2: We recommend that USAID/Lebanon ask, in writing, the
implementer and the Ministry of Education and Higher Education to establish roles and
responsibilities of all program parties that align with the cooperative agreement.

Mission Response: On April 9, 2013, the Mission’s ED/DRG Office Director issued a letter to
the Director General of the Ministry of Education and Higher Education Mr. Fadi Yarak
(Attachment F), and a letter to EDC’s Chief of Party Ms. Jill Meeks (Attachment G). The purpose
of both letters is to establish revised roles and responsibilities for all parties under the D-
RASATI project that align with the award between USAID and EDC. Attached to both letters is
the revised Matrix of Responsibilities (Attachment H) that was developed under the D-RASATI
project.

Based on the above, the Mission believes that final action has been completed and requests
closure of Audit Recommendation No. 2 upon report issuance.

Recommendation No. 3: We recommend that USAID/Lebanon, in coordination with
USAID/Egypt’s regional legal advisor and procurement office, determine, in writing, whether a
611(e) certification is required based on program activities, and submit the certification, if
required.

Mission Response: On March 19, 2013 the Regional Legal Advisor and the Regional
Assistance and Acquisition Officer confirmed in writing that a 611(e) certification is required
based on program activities (Attachment I). Accordingly, the 611(e) certification was submitted
by the Mission and was approved by the Acting Assistant Administrator on April 21, 2013
(Attachment L).

Based on the above, the Mission believes that final action has been completed and requests
closure of Audit Recommendation No. 3 upon report issuance.




                                                                                                 14
                                                                                         Appendix II


Recommendation No. 4: We recommend that USAID/Lebanon, in coordination with
USAID/Egypt’s regional procurement office, modify the program agreement to include
sustainability activities for each component of the award.

Mission Response: On April 8, 2013, the Regional Contracting Office on behalf of
USAID/Lebanon, issued Modification of Assistance #3 (Attachment A) to EDC Cooperative
Agreement (CA) 268-A-00-10-00078-00. The revised Program Description in the award
includes a section entitled “Follow up and Sustainability” under the following components:

Component 2 B1 – Learning Environments Improved (page 14)
Component 2 B2 – Provision of Science Labs in Schools (page 15)
Component 3 – Increased Learning Opportunities (page 20)

This section outlines the activities/actions that will ensure the sustainability of USAID’s
assistance after the project ends.

The modification reduced project activities to keep primarily the school rehabilitation, the
provision of science lab equipment and the teacher training activities, all of which have a
sustainability element.

Component 1 (Assessment) and Component 5 (Monitoring and Evaluation) do not include
separate sustainability sections, as the assessment serves to identify the priority areas where
activities are to be implemented, and the M&E serves to monitor the implemented activities.
However, under the M&E component, database systems will be installed at the MEHE that will
support future MEHE planning and decision-making, which is a sustainability element.
Based on the above, the Mission believes that final action has been completed and requests
closure of Audit Recommendation No. 4 upon report issuance.

Recommendation No. 5: We recommend that USAID/Lebanon, in coordination with Education
Development Center Inc., modify all awards to include the required trafficking in persons
provision.

Mission Response: On January 9, 2013, the USAID/Egypt Agreement Officer issued
Modification of Assistance #2 (Attachment J) to include the Combating Trafficking in Persons
(C-TIP) provision.

Based on the above, the Mission believes that final action has been completed and requests
closure of Audit Recommendation No. 5 upon report issuance.

Recommendation No. 6: We recommend that USAID/Lebanon designate, in writing, a
counter trafficking in persons coordinator.

Mission Response: USAID/Lebanon in its Staff Notice No. 001-2013 (Attachment K), dated
January 10, 2013, designated Lena Jammal from the Program Office as the Mission’s Counter-
Trafficking in Persons (C-TIP) Coordinator and the designation was entered in the Agency’s
CTIP Directory.

Based on the above, the Mission believes that final action has been completed and requests
closure of Audit Recommendation No. 6 upon report issuance.




                                                                                                 15
                                                                                                   Appendix III


                                USAID/Lebanon’s Alert Notice Analysis

                                                                                                   USAID/Lebanon
                  Condition                                USAID/Lebanon Analysis
                                                                                                     Decision
                                                    EDC sent the official offer letter to the
     Chief of party nominated within 5 days and     candidate on February 7, 2013, and the
1                                                                                                     Acceptable
     in country within 30 days                      candidate's first day with the program is
                                                    planned for March 11, 2013.
     Revised comprehensive, detailed budget
                                                    EDC submitted its most recent revised
     submitted to USAID for approval, reflecting
2                                                   request for an award modification on              Acceptable
     the already submitted revised program
                                                    January 22, 2013.
     description
     A detailed plan for quality control of
     rehabilitation efforts is to be submitted to
                                                    EDC submitted the requested document
     USAID. On January 11, 2013, an e-mail
                                                    within the time frame of the notice letter.
3    was sent to EDC outlining the specific                                                         Not Acceptable
                                                    However, the plan was not sufficient and
     questions and concerns the Agency has
                                                    did not address USAID's concerns.
     about quality rehabilitation efforts, which
     remain USAID’s primary concern.
Deliverables identified in the year 3 work plan to be completed and submitted to USAID:

                                                    EDC submitted the analysis on January 25,
4    Gap analysis for extracurricular activities                                                      Acceptable
                                                    2013.
     School improvement planning and                EDC submitted the analysis on January 25,
5                                                                                                     Acceptable
     community engagement gap analysis              2013.
                                                    EDC submitted the revised effective school
                                                    profile and annexes on February 13, 2013.
                                                    However, USAID/Lebanon decided EDC
                                                    should stop working on the profile beyond
6    Effective school profile                                                                       Not Acceptable
                                                    the teacher standards because of EDC’s
                                                    inability to produce the level of quality
                                                    required and its failure to complete certain
                                                    elements of the profile.
                                                    EDC did not submit the plan and tool during
7    Final maintenance plan and tool                                                                Not Acceptable
                                                    the notice letter’s time frame.
     Science laboratory equipment selection
                                                    EDC did not demonstrate that the process
     process completed with clear delivery
8                                                   had been completed by February 14, 2013,        Not Acceptable
     dates established and submitted to USAID
                                                    as requested by the notice letter.
     agreement officer for approval
     Information and communication technology
                                                    EDC did not submit the standards and
     standards and specifications for
9                                                   specifications within the required time         Not Acceptable
     information and communication technology
                                                    frame.
     procurement
                                                    EDC did not submit the final standards
10   Teacher performance standards                                                                  Not Acceptable
                                                    during the notice letter time frame.
     English teacher training procurement           EDC did not demonstrate that the
11   completed with course commencement             procurement was completed and did not           Not Acceptable
     dates clearly established                      submit clear commencement dates.




                                                                                                            16
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
